J

No.

IN THE
SUPREME COURT OF THE UNITED STATES

KATHLEEN C. HAMPTON,
Petitioner,
v.

PROF-2013-S3 LEGAL TITLE TRUST, BY U.S. BANK NATIONAL
ASSOCIATION, AS LEGAL TITLE TRUSTEE
Respondent
On Petition for Writ of Certiorari to the
The Supreme Court of Virginia
Record No. 201105
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
AND PETITION FOR WRIT OF CERTIORARI
PROOF OF SERVICE
I, Kathleen C. Hampton, Petitioner herein, do swear or declare that on this
date, October 12, 2021, as required by Supreme Court Rule 29, I have served the
enclosed Motion for Leave to Proceed In Forma Pauperis and Petition for a Writ of
Certiorari, in the Supreme Court of the United States, and on PROF-2013-S3 Legal
Title Trust’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class priority postage prepaid.

1

The names and addresses of those served are as follows^
Respondents'
E. Edward Farnsworth, Jr., Esq. (VSB No. 44043)
Ronald J. Guillot, Jr., Esq. (VSB No. 72153)
SAMUEL I. WHITE, P.C.
596 Lynnhaven Parkway, Suite 200
Virginia Beach, Virginia 23452
(757) 217-3718 (Telephone)
(757) 337-2814 (Facsimile)
Email- efarnsworth@siwpc.com
rguillot@siwpc.com
Counsel for PROF-2013S3 Legal Title Trust,
by US. Bank National Association, as Legal Title Trustee
Honorable Mark Herring, Attorney General
Office of the Attorney General
202 North 9th Street
Richmond, Virginia 23219
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 12, 2021

Kathleen C. Hampton, Pemioner, pro se

2

